<html>
<title> - CONDEMNING THE VIOLATION OF UKRAINIAN SOVEREIGNTY, INDEPENDENCE, AND TERRITORIAL INTEGRITY BY MILITARY FORCES OF THE RUSSIAN FEDERATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 CONDEMNING THE VIOLATION OF UKRAINIAN
                     SOVEREIGNTY, INDEPENDENCE, AND
                   TERRITORIAL INTEGRITY BY MILITARY
                    FORCES OF THE RUSSIAN FEDERATION

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                              H. Res. 499

                               __________

                             MARCH 6, 2014

                               __________

                           Serial No. 113-126

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
86-961 PDF                    WASHINGTON : 2014
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  








                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 499, Condemning the violation of Ukrainian sovereignty, 
  independence, and territorial integrity by military forces of 
  the Russian Federation.........................................     2
  En bloc amendment to H. Res. 499 offered by the Honorable 
    George Holding, a Representative in Congress from the State 
    of North Carolina, the Honorable Joseph P. Kennedy III, a 
    Representative in Congress from the Commonwealth of 
    Massachusetts, the Honorable Adam Kinzinger, a Representative 
    in Congress from the State of Illinois, the Honorable Mark 
    Meadows, a Representative in Congress from the State of North 
    Carolina, and the Honorable Scott Perry, a Representative in 
    Congress from the Commonwealth of Pennsylvania...............    15
  Amendments to H. Res. 499 offered by:..........................
      The Honorable William Keating, a Representative in Congress 
        from the Commonwealth of Massachusetts...................    23
      The Honorable Ted Poe, a Representative in Congress from 
        the State of Texas.......................................    25
          Amendment to the Poe amendment offered by the Honorable 

            Alan Grayson, a Representative in Congress from the 
            State of Florida.....................................    34
          Modified Grayson amendment to the Poe amendment........    35
      The Honorable Tulsi Gabbard, a Representative in Congress 
        from the State of Hawaii.................................    38

                                APPENDIX

Markup notice....................................................    42
Markup minutes...................................................    43
Markup summary...................................................    45
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    46
The Honorable Joseph P. Kennedy III: Prepared statement..........    47


                      CONDEMNING THE VIOLATION OF



                  UKRAINIAN SOVEREIGNTY, INDEPENDENCE,



                 AND TERRITORIAL INTEGRITY BY MILITARY



                    FORCES OF THE RUSSIAN FEDERATION

                              ----------                              


                        THURSDAY, MARCH 6, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11:31 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This meeting will come to order.
    And pursuant to notice, we meet today to mark up House 
Resolution 499 condemning the violation of Ukrainian 
sovereignty, Ukrainian independence, and territorial integrity 
by military forces of the Russian Federation.
    I now call up the resolution, and without objection it is 
considered read and open for amendment at any point.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Royce. Furthermore, without objection, all members 
here may have 5 calendar days to submit statements for the 
record or any extraneous materials that they might want to 
provide. And after my brief remarks, I think I will recognize 
those who wish to offer amendments.
    Okay. After my opening remarks, let us do it this way. Any 
members who would like to speak on this resolution, let us get 
that debate out of the way, and then we will go to the members' 
amendments, some of which will be accepted en bloc after they 
make their case, and some will be voted on independently that 
are more controversial.
    I would also like to thank the members for their 
cooperation in considering this resolution so quickly. As we 
heard during this morning's testimony, Ukraine is in a very 
difficult, very tense situation. Time is of the essence. 
Congress needs to have its voice put in play soon on this, and 
this resolution is a straightforward declaration by the House 
in support of freedom-loving Ukrainians in their time of trial. 
It also condemns Russia's unprovoked aggression, in no 
uncertain terms.
    This resolution is one part of a larger effort to provide 
assistance to Ukraine and to impose real costs on Russia for 
its actions, which this committee is working on. This 
resolution, among other provisions, condemns the violation of 
Ukrainian sovereignty and independence and territorial 
integrity by military forces of the Russian Federation. It 
declares the Ukrainian people have the right to determine their 
own future, free from outside interference.
    Importantly, the resolution calls on the administration to 
work with our allies to impose visa, financial, and other 
sanctions as appropriate. This action cannot go unchallenged. 
The action by Russia cannot go unchallenged. And as part of an 
effort to show Moscow how isolated they are, world leaders are 
speaking out. The House should speak out as well.
    And with that, I will open the committee to any comments 
that members would like to make on the resolution itself at 
this time.
    Mr. Meadows.
    Mr. Meadows. I just would like to thank the chairman for 
his work and, quite frankly, for bringing this to the attention 
of the House in such an expedited manner. The chairman is 
correct in terms of the critical nature. Every hour makes a 
difference. And so I would just like to thank the chairman for 
his leadership and the committee for their work on bringing 
this forward, and I support the resolution. Yield back.
    Chairman Royce. Any other members who would like to be 
heard on the resolution at hand? Mr. Brad Sherman of 
California.
    Mr. Sherman. I support the resolution. Happy to co-sponsor 
it. I think it is important in this resolution not only to urge 
Russia to do what it should do, and I think the resolution does 
a good job of that, but to also urge those in Kiev to broaden 
their coalition to include people in the government that were 
with the party that actually won the last internationally 
monitored election, and to not adopt measures that would 
question the use of the Russian language or reduce the level of 
official language status that the Russian language has 
according to laws that existed at the beginning of this year.
    If we want a united Ukraine, the government in Kiev has got 
to not be a government of the winners but a government of the 
entire country. And I hope that that is part of the message we 
send, whether it is in the text of the resolution or not, and I 
yield back.
    Chairman Royce. I thank the gentleman. Mr. Grayson of 
Florida.
    Mr. Grayson. Thank you, Mr. Chairman. I support this 
resolution and strongly object to and condemn Russian 
interference in any other country, including neighboring 
countries. That being said, I think that the resolution fails 
to come to grips with the fundamental issue that is facing us 
around the world when we are addressing the situation, which is 
this. The Ukraine is an artificial creation, and, specifically, 
a creation of Lenin and Khrushchev slapping together a 
Ukrainian population with a Russian-speaking population and a 
Russian Ukrainian-speaking population.
    Time after time and in election after election, we have 
seen a sharp geographic division in the country between east 
and west. In the west, you have Ukraine and Ukrainian speakers. 
In the east, you have both Russians and Ukrainians who speak 
Russian primarily. Once again, over and over again, we see in 
the west one party winning 80 or 90 percent of the vote, the 
Ukrainian party; the other party in the east winning 80 or 90 
percent of the vote, the Russian party.
    These are Siamese twins joined at the hip, and they need to 
be over time very carefully and tenderly separated. That is the 
only way that we are going to see any sort of resolution of the 
situation.
    I would hope to see U.S. policy that recognizes that. I 
would hope to see U.S. policy that favors regional autonomy and 
the right to self-determination to both sides of the country. 
It is clear now that in the west there is a strong desire for 
the western part of the Ukraine to join Poland and other 
neighboring countries as part of the EU. That is not shared by 
many people in the eastern part of the country.
    The Russians and the Russian speakers in the east favor a 
different policy entirely. We have to come to grips with that. 
If autonomy means anything, it means the right to determine who 
it is who will be determining your future. In the west, there 
is a desire to see the EU help determine the future of the 
Ukraine. In the east, there is a desire to see Russia help 
determine the future of the Ukraine.
    The area that the Russians are now using military forces to 
try to control is an area that voted for the deposed government 
with over 90 percent of the vote. Again, I don't in any way 
agree with what the Russians have done, but I do have to wonder 
what point there is in engaging in this kind of Cold War 
attitude, this ``us versus them'' attitude, and failing to come 
to grips with the underlying problem.
    Basically, we are talking about a country that cannot even 
agree on an alphabet. And as long as that remains true, there 
will be no peace in the Ukraine, regardless of what we do or 
what the Russians do.
    I yield back.
    Chairman Royce. Yielding myself such time as I may consume, 
let me point out that there are many countries in which more 
than one language is spoken. But in the case of the Ukraine, 
when the vote for independence came, the Russian-speaking 
portion of the country, as well as the Ukrainian-speaking 
portion, voted overwhelmingly for independence.
    Likewise, when the vote came on the referendum, basically, 
on Yanukovych, to remove him from his post, 328 members, both 
east and west, from the east and the western portion of the 
country, voted in favor of his removal. That is 100 votes above 
and beyond the number required for passage as, indeed, the 
parliamentarians who belong to his own political party, the 
Party of Regions, voted overwhelmingly in favor of impeachment.
    The EU observers, by the way, including the Polish and the 
French and the German foreign ministers, were at Kiev at the 
time, and immediately affirmed to the media that there had been 
no coup, that the overwhelming majority of Parliament had voted 
for a new government.
    Now, as Ukraine goes to elections in May, this is an 
opportunity. It is an opportunity for us in the Congress, as we 
stress in this resolution, to encourage inclusion in the 
Ukraine. We recognize that Poland and Ukraine have an 
overwhelming majority of people who want an independent 
Ukraine.
    And, yes, it is true; some look east and some look west, 
and ultimately it is up to the Ukrainian population to resolve 
this peacefully through their elected government. But I think 
we can assert the principle that Ukraine be allowed to serve 
both those roles, to trade to the east and trade to the west, 
to trade to the north with Poland and to the south with 
Moldova.
    I think that we have an opportunity also in engagement, and 
I hope to do this, you know, in our delegation that we take 
with this committee in April in Kiev, to stress the importance 
of inclusion with respect to different languages, because so 
many conflicts start out over language. But in this particular 
case, if we recognize the history, part of this is because of 
Soviet meddling in the past.
    The eastern Ukraine once had an additional 8 million 
Ukrainian speakers. Joe Stalin, unfortunately, during the 
collectivization, forced collectivization of the country, moved 
them out to Siberia. Most of them perished, most of the 
population that was moved. And, subsequently, there were the 
purges under the Soviet system.
    So, yes, Russian speakers moved in, but what is interesting 
about Ukrainian independence is the overwhelming support from 
all parts of the country, whether Tatar or Ukrainian or Russian 
speaking. And given this important consideration, I think we 
have here before us a resolution that carefully explains, in a 
way that will help bring leverage to wind down this crisis, our 
recognition that all minority groups need to be included there.
    And I think the template for democratic governance--and I 
don't doubt this is going to be difficult, because Ukraine does 
not have a history of compromise in its political system. But 
what we are suggesting here, and with further EU engagement, 
our hope is that we can help bring together the different 
political parties and factions.
    And the best way to do it is what is in this resolution, 
calling for an election in which everyone goes to the polls, 
and a legislature which is representative, and then bring in 
the forms which end the corruption, because also a portion of 
this resistance that you see in the country is to the 
historical corruption, the endemic corruption there.
    And that is the other issue that needs to be addressed, and 
we are addressing that as well with the engagement of Europe 
and the United States.
    Mr. Kinzinger. Will the chairman----
    Chairman Royce. And I will yield to Mr. Kinzinger.
    Mr. Kinzinger. I just want to make the point that in the 
United--as a Republican from Illinois, the United States 
actually votes quite differently based on geography, and in 
some cases it seems like we actually speak different languages 
as well. But we are able to stand together as one country and 
achieve a common objective, so I just wanted to add that to the 
chairman's point.
    Chairman Royce. I thank the gentleman.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Mr. Chairman, I yield my time to Mr. 
Grayson.
    Mr. Grayson. Thank you. Responding to the point that was 
just made, if you go back and you look at the election results 
for the 1868 election and the 1872 election here in the United 
States, at the end of the bloodiest war that we have ever 
experienced, you don't see the polarization state by state that 
you see in the recent Ukrainian elections going back to 2004.
    There is actually a greater polarization today in the 
Ukraine determined by the election results than there was in 
those elections. There was no state in the United States that 
voted as much as 80/20 in the 1868 election. Many, many 
provinces in the Ukraine voted more than 80/20, either for the 
pro-Ukrainian party or the pro-Russian party.
    That is the fact, and that shows that they have reached the 
end of the line. There must be some kind of acknowledgement of 
the fact that the people in the eastern part of the Ukraine do 
not want to be part of the EU, and the people in the western 
part of the Ukraine do not want to be lorded over by Russia.
    And we need to--if we are going to have any hope of 
progress, we need to recognize that. We have had our velvet 
divorces around the world before. Nobody claims anymore that 
the Czech Republic should be slapped together with Slovakia.
    Sometimes it is done in a less peaceful manner as occurred 
with Sudan and South Sudan recently. But the fact is that there 
are irreconcilable differences between these two parts of the 
population, and I will vote for this resolution, but I think 
that it is a shame that the resolution does not acknowledge the 
basic fact that has caused the situation in the first place.
    Chairman Royce. Could I ask if Mr. Cicilline would yield me 
some time? I understand the gentleman's point. I would point 
out, if we are looking at the 1868 and 1872 elections, I am not 
sure if you follow this logic that that would be borne out, 
because Confederate soldiers were not allowed to vote in those 
elections. Indeed, the distance between the north and the south 
would be far greater if they had been given the franchise to 
vote.
    This is different than in the Ukraine, because in the 
Ukraine, after the collapse of the Soviet Union, those who had 
been on the side of the Soviet Union were allowed the 
franchise, were allowed the right to vote. I would make that as 
an example of the fact that we, in the United States, have gone 
through something as wrenching, perhaps more wrenching with 
respect to the Civil War, and have eventually come closer 
together.
    I think the point that you make, Mr. Grayson, which is the 
most concerning one is about the fact that the difference with 
respect to language itself creates probably more of an 
impediment than anything else, and that is an area where we can 
weigh in, where we can assure minority rights and do so, and 
articulate the fact that all minority rights should indeed be 
guaranteed and respected.
    And I think this way forward is perhaps the one way we can 
underscore your vision of trying to address this issue. I do 
not think a balkanization of the east and the Ukraine would--
based upon the polling that I have seen, it is opposed by the 
Ukrainians themselves. And I think a better resolution would be 
one, as I stated earlier, where Ukraine looks east and west, 
and I think this resolution overall urges that right to self-
determination to all of the people of the Ukraine.
    Mr. Cicilline, did you want to reclaim time to make a 
point?
    Mr. Kinzinger. Thank you. You are like the timekeeper now.
    I just--I thought the chairman made a great point earlier, 
and I just want to reiterate it to make sure it wasn't lost in 
his powerful overall point, which is the situation we see in 
Ukraine, in terms of the ethnic divisions, was engineered by 
the Russians. This was engineered by Stalin. Stalin intended to 
populate east Ukraine so that some day, whether it was in 2014 
or whether it was 20 years after he did it, some day he could 
claim legitimacy to that very important part for him.
    So I hope that point is not lost, that this is something 
that was engineered in the mind of Stalin.
    I thank the gentleman from Rhode Island, and I yield back.
    Mr. Grayson. May I ask for some time?
    Chairman Royce. Recognizing Mr. Grayson.
    Mr. Grayson. Thank you. Just to be historically accurate, 
it wasn't Stalin that added the eastern part of the Ukraine. It 
was Lenin, and it was Khrushchev. So the gentleman seems to be 
misinformed in that regard.
    Chairman Royce. If I could--it was Mr. Khrushchev with 
respect to, if I--Mr. Grayson, yielding myself such time as I 
may consume, it was in 1956 that Mr. Khrushchev actually 
transferred Crimea to the Ukraine, thus creating the current 
boundaries of the country. And you are correct, Mr. Lenin prior 
to that.
    But, you know, so many countries across eastern Europe are 
the consequence of these machinations over time. And I think 
the bottom line, again, is that self-determination has to be 
left to the people of the country. And I believe if we have a 
fair and free election in May, that this will be the best way 
forward for the Ukrainian population.
    Let me recognize Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I wish to associate 
myself with your remarks, Mr. Chairman. I certainly appreciate 
Mr. Grayson's reminding us of the historical context, but where 
do we go with that? I am concerned about two things here. One 
is there is no end of boundaries and borders we could start 
redrawing based on artificiality or convenience from the 
Mideast to Africa to, as you point out, Mr. Chairman, former 
Soviet Republics.
    Many boundaries are very arbitrary, and, you know, we have 
paid a price sometimes for that arbitrariness. But to go back 
in and decide that we are going to redo them all because 
somebody in history got it wrong I think is somebody else's 
task, way beyond the work of this committee.
    Secondly, I also believe that the danger of dwelling too 
much on that is that unwittingly--unwittingly, it gives a 
rationale for what Putin has already done. The fact that the 
Crimea was added to the Ukraine in 1956 in no way--and I know 
Mr. Grayson is not suggesting this--but it in no way justifies 
what Russia and Putin have done. Who wants to go down that road 
in terms of that justification?
    So I believe the resolution in front of us is a balanced 
one, as you suggest, Mr. Chairman, and I intend to support it. 
I yield back the balance of my time.
    Did Mr. Kinzinger want some time? Or is he--all right. Mr. 
Chairman, I would yield back the balance of my time.
    Chairman Royce. Thank you.
    Mr. Connolly. Unless Mr. Grayson----
    Chairman Royce. Thank you, Mr.----
    Mr. Connolly [continuing]. Unless Mr. Grayson wants more 
time.
    Mr. Grayson. I would simply reiterate that--I have already 
indicated that I support the resolution, but I think the 
resolution is at best a half-measure that doesn't acknowledge 
the underlying cause or attempt to come up with a solution. 
Self-determination has to be the key. The way to self-
determination in the Ukraine is through devolution, local 
autonomy, and perhaps ultimately through independence. I don't 
see this crisis ending in any real way without that happening.
    I yield back.
    Chairman Royce. I am just going to close my arguments, 
yielding myself such time as I may consume, with this point. 
The resolution does not assert a position on Crimean secession. 
What it does is call for all citizens in Ukraine to respect the 
current government authorities, and that is a necessary step in 
promoting stability and rule of law in the country.
    And the resolution also calls on the Ukrainian Government 
to protect the rights of all minority populations within 
Ukraine, which is important, particularly for ethnic Russian 
minorities in the eastern and southern regions.
    I think Mr. Duncan of South Carolina was seeking 
recognition.
    Mr. Duncan. I thank the chairman for his effort here, you 
know, and I appreciate the comments that brought this into 
historical perspective. But the time and history that I think 
about as we talk about the Ukraine is 1776, 1777. I think about 
a people in the Ukraine that are seeking liberty and seeking 
self-governance, and I think about--when we talk about the 
Crimea and we talk about the different ethnicities of the 
Ukraine territory, I think about, should we be concentrating on 
trying to engineer another state? Or should we let the 
Ukrainians deal with that?
    And definitely the Russians are involved in not just the 
Crimea, but by sinking one of their own ships and blocking the 
naval passage for the Ukrainian Navy to have access to the 
Black Sea for their own protection and their own protection of 
their maritime fleet, we definitely see Russia socioengineering 
and militarily involved there.
    So when I think about 1776, and I think about this being 
the Ukraine's 1776 moment, pursuing self-governance, pursuing 
liberty, the things we take for granted in this country, I also 
think about their desire for help from another free country--
the United States of America. And I think about the French 
courts at the time in 1777 when Ben Franklin is asking for 
financial aid so that this fledgling nation could win its war 
and win its independence and actually pursue self-governance.
    And so as we debate and vote further on today with 
financial loan guarantees, we need to keep in mind that we 
wouldn't be here had not another country stepped up to provide 
that opportunity for us.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. Thank you. Before we go to the en bloc, are 
there any other members seeking recognition on the underlying 
bill?
    [No response.]
    Seeing none, in order to expedite consideration, and with 
the prior concurrence of the ranking member, I ask unanimous 
consent that the following amendments, which members have 
before them, be considered en bloc--the Holding amendment, 
Number 15; the Kennedy amendment, Number 8; the Kinzinger 
amendment, Number 10; the Meadows amendment, Number 32; the 
Perry amendment, Number 31.
    Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Royce. Do any members seek recognition to speak on 
any of the en bloc items that they have--Mr. Kennedy of 
Massachusetts.
    Mr. Kennedy. Thank you, Mr. Chairman. I want to voice my 
support, obviously, for my amendment in the en bloc that is now 
up for consideration. It includes an amendment that I offered 
that would include a reference to a resolution that the House 
already passed on February 10. Additionally, it seeks to add a 
clause and has some grammatical corrections to make sure that 
that cause fits in, to say that the ``instability in the 
Ukraine forced 230 Peace Corps volunteers out of Ukraine.''
    Mr. Chairman, as you are aware, I am a former Peace Corps 
volunteer. It is an organization that has a special place in my 
heart. And recognizing that on February 24, 2014, Peace Corps 
announced that all Peace Corps volunteers in Ukraine are safe 
and accounted for, but they had to be evacuated, rounded up and 
evacuated. Peace Corps had been working in Ukraine since 1992 
under an agreement brokered by President George Bush and the 
former Ukrainian President Kravchuk.
    To date, over 2,740 American volunteers have lived and 
worked in Ukraine, fostering a competitive, collaborative, 
cooperative spirit between our two countries. They served in 
Ukrainian schools, bringing resources and innovative practices 
to the country's education system, fostering foreign exchange 
of information, and best teaching practices.
    They have worked tirelessly on social and economic 
development, working in tandem with the Ukrainian communities, 
supporting critical service providers, assisting local 
institutions, fostering cooperation between non-NGOs, 
government entities, and private enterprises.
    Perhaps most importantly for me, Mr. Chairman, a Peace 
Corps volunteer named Alex Kaplan is a native of my district, 
and he was one of the many Americans who were evacuated from 
the Ukraine within the last 2 weeks as the crisis escalated. He 
was teaching secondary education at a local school, as well as 
volunteering at a local animal and homeless shelter, a girls 
orphanage, and several English language clubs. He talked in a 
recent article, in a recent interview, about the strong bonds 
he formed with his community and, most importantly, the fact 
that he would go back in a heartbeat to continue his service 
once the threat subsides.
    Since the inception of the Peace Corps, volunteers like 
Alex have embodied the spirit of service, peace, and 
cooperation that are the fundamental pillar of American foreign 
policy. Their inclusion in this resolution underscores the 
enduring commitment to those values and a world that is freer 
and fairer than before.
    I ask for your consideration for the amendment. Thank you.
    Chairman Royce. Thank you, Mr. Kennedy.
    We will go to Mr. Perry of Pennsylvania, and then Mr. 
Sherman of California.
    Mr. Perry. Thank you, Mr. Chairman. I want to just speak on 
behalf of my amendment regarding the paramilitary forces in 
Crimea. It seems that Mr. Putin continues to propagate the myth 
that Russia does not interfere in the internal affairs of other 
nations. The fact is is that Russia has a very long history of 
interfering in former Soviet states, and it seems that Mr. 
Putin mourns the loss of the empire and has set one of his 
goals to reconstruct a modern version of it through his 
proposed Eurasian Union.
    But to do so, he needs Ukraine, and he doesn't need a 
democratic revolution so close to Moscow that threaten his de 
facto autocracy. So he reserves the right to resort to economic 
blackmail and, in Georgia in 2008, and now Ukraine, military 
intervention to keep his neighbors in line.
    Russia has been stoking separatist sentiment for years in 
Crimea and now is doing it at gunpoint. Strong evidence 
suggests that members of Russian security services are at the 
heart of the highly organized anti-Ukraine forces in Crimea. 
While these units wear uniforms without insignia--a violation 
of international law, by the way--they drive vehicles with 
Russian military license plates and freely identify themselves 
as Russian security forces when asked by the international 
media and the Ukrainian military.
    My amendment and this amendment simply reflects the 
consensus of international community and identifies the reality 
of the facts on the ground by calling on the Russian Federation 
to end its support for separatist and paramilitary forces in 
Crimea.
    And I yield back.
    Chairman Royce. Thank you. We go now to Mr. Sherman.
    Mr. Sherman. Just a brief comment, the Meadows amendment 
does call on the President not to attend the G8 or G7. I 
support that, but with the hope that Russia will respect the 
territorial integrity of the Ukraine, and nothing would make me 
happier than for Russia to do the right thing and the President 
to enjoy his trip to Sochi.
    But I don't want to offer an amendment on this. I think it 
is understood that we are calling for this boycott on the 
assumption that the Russians don't get the message between now 
and then.
    Chairman Royce. Thank you. We go now to Mr. Holding of 
North Carolina.
    Mr. Holding. Thank you, Mr. Chairman. Mr. Chairman, as we 
heard during our hearing, in both the immediate and long term, 
Ukraine is going to require a wide range of assistance from the 
United States and our international partners. My amendment adds 
a resolve clause to the resolution that expresses the support 
of the House to work with our partners in Ukraine to improve 
transparency, combat corruption, and protect individual rights 
through an independent judiciary and a strong rule of law.
    Making improvements in these areas will all be crucial to 
the long-term stability in Ukraine, and they are also the 
foundation on which strong democratic governance is built. And 
I ask members to support my amendment and support the en bloc 
package.
    I yield back.
    Chairman Royce. I thank the gentleman.
    Mr. Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. I want to thank you 
for accepting my amendment in this package. It strengthens our 
underlying bill by adding, and it calls on the administration 
to oppose visa, financial, trade, and other sanctions on not 
only Russian Federation officials, but also on Russian and 
Ukrainian oligarchs and anyone else complicit in Russia's 
intervention and interference.
    The President has made it clear the steps that Russia has 
taken violate Ukraine's sovereignty and territorial integrity 
and our breach of international law. I am pleased Congress and 
the administration are moving forward together toward 
implementing tough sanctions and would hope that our friends in 
the EU would consider the long-term implications that weakness 
toward Russia will mean.
    I would also like to add my support for Mr. Keating's 
amendment. I have been concerned in what I have seen in terms 
of our allies, the French, having a naval contract with the 
Russians. And it is a naval contract to sell ships to the 
Russians that are actually beneficial in controlling the Black 
Sea coastline. And one of the difficulties Russia had in their 
illegal war with Georgia was their inability to control the 
Black Sea coastline, and this contract with French shipbuilders 
would actually give them that ability.
    So I hope our EU partners look very closely at their mil-
to-mil relationship with Russia and consider doing the right 
thing on behalf of freedom-seeking people all over the globe.
    And I yield back, Mr. Chairman.
    Chairman Royce. I thank the gentleman.
    Mr. Meadows, were you seeking recognition on your 
amendment? So recognized.
    Mr. Meadows. Thank you, Mr. Chairman, and I will be very 
brief. The amendment--I appreciate the chairman's consideration 
of this en bloc, basically calling on a boycott, joining with 
the President and asking other democratic states to boycott the 
G8 summit in Sochi, to convene a G7 summit someplace outside of 
Russia. I appreciate my colleague from California's pointing 
out--Mr. Sherman--his support of the amendment.
    And certainly all of us want to recognize the fact that if 
Mr. Putin decides to go a different direction and reverse this 
course he is on, we will gladly look at restoring 
relationships.
    I also want to say that in spite of what may have been 
heard here today, I want the Ukrainian people to recognize that 
Democrats and Republicans, the administration and Congress, are 
joining together to make sure that we stand alongside the 
freedom-loving people of the Ukraine, and we will stand up for 
them in this particular venture. And so I would urge the 
support of this amendment.
    And I thank the chairman and yield back.
    Chairman Royce. Are there any other members seeking 
recognition? Mr. Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman. It has been said that 
to some degree America has been playing marbles, which if you 
have ever played marbles as a kid you know that the long-term 
strategy is not very in-depth, while Russia is playing chess. 
And if you play chess, you understand that you have to 
calculate each potential move of your opponent, and for each of 
those moves have your responses available and at hand in order 
to ensure ultimate success.
    In that vein, with the economic sanctions that we are 
seeking, I am inquiring of the members what our next move is 
depending on what Russia does. So if we evict them from the G8 
and they become--or we become a part of the G7, or if we do 
impose significant economic sanctions, what might Russia's 
responding move be, by way of example? How do we react if 
Russia's next move is to say, ``We are no longer going to allow 
you to hitch a ride to the International Space Station''?
    What does America do under those circumstances inasmuch as 
we are likely years away from having a human spaceflight 
capability given the President's rather unilateral termination 
of the Constellation Program years ago, and the President's 
decision to not only mothball our space shuttles but to put 
them in museums rather than have them available as a 
contingency, such as what has arisen?
    What do we do if Russia's next move is to say to the United 
Launch Alliance, as was evidenced by a hearing this week in the 
Senate, that Russia is no longer going to deliver engines to 
the United Launch Alliance which in turn supplies our 
capabilities of launching satellites into space?
    Many of those satellites are military in nature, highly 
classified, and so my query to, say, Mr. Meadows or Mr. Keating 
or the chairman, or any other members is, what is our next move 
if Russia decides as their next move to deny us access to 
manned space flight to the International Space Station? Or 
denies us the rockets that we need to put our satellites in 
space?
    Now, don't get me wrong with my query. I intend to support 
this resolution, because to a large degree I see it as 
authorizing the executive branch to determine what economic 
sanctions are appropriate, and I personally believe that that 
is the executive branch's responsibility and duty. And I hope 
that they will play chess rather than marbles, but please, if 
anyone has any suggestions in particular on how we are going to 
resume our manned space flight capabilities in a short period 
of time, I would like to hear it.
    Mr. Kinzinger. Will the gentleman yield?
    Mr. Brooks. Yes, I will.
    Mr. Kinzinger. I think it is very interesting a cosmonaut 
and an astronaut are actually coming back together. If it 
hasn't happened already, it is happening within the next few 
days. Even during the Cold War, we had great relationships in 
terms of some of that. There was the Soyuz U.S. mission or 
something that happened.
    I also do wonder if Vladimir Putin, when he makes a 
decision to go into Ukraine or Georgia or terrorize his 
neighbors, if he sits around and wonders all these questions, 
too, and then decides he doesn't want to do anything because he 
is afraid it might hurt our space alliance. So I would just 
humbly and kindly say to my friend that I think reacting from a 
position of strength on the United States is the best thing 
that we can do against this incursion into Ukraine. And while I 
think what is the next step is a worthy question to have, I 
don't think our adversaries wonder with quite the caution that 
the gentleman is asking the question.
    I yield back to the gentleman.
    Mr. Brooks. Thank you. I appreciate your comments, but I 
note that you did not answer my question. If anyone has any 
idea as to how we are going to engage in manned space flight if 
Russia does tit for tat, I am anxious to hear. If anyone has 
any suggestions on how we are going to be able to launch our 
satellites, given our reliance on Russian engines, I am anxious 
to hear.
    In the alternative, I would hope that the members of this 
committee would significantly increase funding for NASA so that 
we can very quickly resume those launch capabilities and return 
America to the preeminent position in space that we held for 
decades.
    Chairman Royce. Mr. Brooks, I am going to yield myself such 
time as I might consume. The point you raise is the very reason 
why we need to use the leverage that we have at our disposal 
right now in order to get Russia to recognize that it cannot 
continue to escalate this crisis in eastern Ukraine.
    You see, if we were to wait and not take action, it is 
probable that Russia would be emboldened to believe there were 
no consequences for its actions. And at that point, it might 
move or attempt to move its agents, city hall by city hall, 
across the eastern part of the country, encouraging them to 
lift the Russian flag and creating a division within each of 
those provinces, each of those communities, each of those 
towns, and thus really magnifying what could end up being a 
civil war within Ukraine and the east.
    However, if we take action now and show that there are 
economic consequences, and if Europe stands with us, and if 
Russia is isolated internationally so that the vote, let us 
say, at the United Nations has only one vote in opposition and 
that is the veto from Russia, but the rest of the international 
community, all calling here for the rule of international law, 
then it is quite probable that with that type of leverage we 
can deescalate this conduct on the part of Putin and get us 
back to the point of cooperation.
    But at this point, if we do not take decisive action, then 
it is far more likely that the escalation will eclipse the 
joint cooperation on programs such as the one you are most 
concerned about right here. So in that context, I would suggest 
that this is the most responsible action we can take in order 
to weigh in and have Russia consider the considerable downside 
effects should they continue to escalate the crisis.
    Mr. Keating. Mr. Chairman? Mr. Chairman?
    Chairman Royce. I will yield.
    Mr. Keating. Thank you, Mr. Chairman. I just want to 
respond to the gentleman from Alabama's comments about an 
amendment I plan to offer in a few minutes. I just want to 
remind everyone that suspending military cooperation, that was 
already one of the first acts that our administration already 
did. That is done.
    So the purpose of the amendment I will be offering is to 
reach out to those other countries, our allies in Central 
Europe and our NATO members, to do the same as we are doing. So 
just to clarify that, Mr. Chairman, before I offer the 
amendment I wanted that point clarified.
    I yield back.
    Chairman Royce. Thank you, Mr. Keating.
    Hearing no further requests for recognition, the question 
occurs on the bipartisan en bloc amendment. All those in favor 
say aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it and the en 
bloc amendment is agreed to.
    Does Mr. William Keating have an amendment at the desk?
    Mr. Keating. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Amendment to H. Res. 499, offered by Mr. 
Keating of Massachusetts. On page 5, between the eighth and 
ninth resolved clauses, insert the following new paragraph.
    Chairman Royce. Without objection, the amendment is 
considered read. The Chair recognizes Mr. Keating from 
Massachusetts to explain the amendment.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Keating. Thank you, Mr. Chairman. NATO Secretary-
General Rasmussen announced that NATO was suspending most of 
the alliance's meetings with Russia and was reviewing the 
entire range of NATO-Russia cooperation. The Baltic States, 
Poland, and other allies in Central Europe have called on NATO 
members in the EU to impose an arms embargo. The UK has said it 
is reviewing its arms exports to Russia.
    However, other NATO members have said an arms embargo would 
be premature. The key reason, of course, is concern about 
possible revenue losses. This amendment calls on European 
allies to suspend export of military equipment that could be 
used to support Russian aggression in the region. This is an 
obvious step for allies to take in response to an unprovoked 
act of military aggression in their own neighborhood.
    I ask for support of this amendment. And with that, I yield 
back.
    Chairman Royce. Do any other members seek recognition? Any 
further debate on this amendment?
    [No response.]
    Hearing no further--no further requests for time, we will 
go then to the vote on the amendment. All those in favor of Mr. 
Keating's amendment please say aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Are there any other amendments? The Chair recognizes Mr. 
Poe of Texas.
    Mr. Poe. I have an amendment at the desk, Mr. Chairman.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Amendment to H. Res. 499, offered by Mr. Poe of 
Texas, page 6, line 9, strike ``and,'' page 6, after line----
    Chairman Royce. Without objection, the amendment will be 
considered read. The Chair recognizes the author to explain his 
amendment.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Poe. I thank the chairman. Mark Twain once said that 
history doesn't repeat itself, but it does rhyme. Well, Russia 
is being the poet these days. First, the Russians moved into 
Moldova in 1992. They moved into Georgia in 2008. I happened to 
be in Georgia 2 weeks after the tanks came rolling in, and now 
they are doing the same thing with the Ukraine.
    This is not the first time the Russians have used the 
economic and political weapon of natural gas against the 
Ukrainians. They have turned off the gas twice before. And, 
once again, I happened to be in the Ukraine when they turned 
off the gas in winter, and it was cold. And it was for 
political reasons, but it was an economic weapon that the 
Russians used against the Ukrainian people.
    As we look at the Ukrainian situation, it is a situation 
that is bigger than just Ukraine. It is the Russian influence 
on the region and holding that region hostage with the use of 
energy, primarily natural gas.
    This past weekend the Russians even warned that Ukraine's 
discount on natural gas was in jeopardy, but there is something 
that we can do, not only to help the Ukrainians but help 
stability in the area, and help the United States as well. And 
that is by selling American natural gas to the Ukrainians, the 
former Soviet Republics, even to Western Europe. There is a 
demand and the American supply is overwhelming.
    We have more natural gas than we can use in the United 
States. Our current reserves are roughly 97 times what the U.S. 
consumed in all of 2011. There is so much natural gas in North 
Dakota that there are 1,500 flare-ups now, which would be 
equivalent to heating over 1 million homes. That is gas that 
they are burning off.
    We have abundant natural gas in this country, primarily in 
Texas. There is an ice cream company in Texas that says--Blue 
Bell, it is the best in the world, by the way--that says as 
their commercial, ``We eat all we can, and we sell the rest.'' 
Well, I think that should be our policy with natural gas--we 
use all we can and we sell the rest.
    And here is an opportunity that we could buttress the 
economic political weapon the Russians are using against the 
former Soviet Republics to bring them back, and that is the use 
of natural gas. And this legislation would simply ask the--put 
part of this bill a requirement that the United States have a 
policy of moving forward with exporting natural gas to the 
Ukraine and other countries.
    According to The New York Times, the Obama administration 
is pushing the idea. The Head of the State Department, Bureau 
of Energy Resources, Carlos Pascual, is a former Ukrainian 
Ambassador to Ukraine, he said Gazprom's influence will be 
weakened as American supplies are shipped onto the global 
market. His team is already working to help the Ukraine and 
other countries break away from the dependence of Russian 
natural gas, and American exports would send a signal that the 
global gas market is changing and the United States is a 
player, but also the Russian influence, economically and 
politically, is diminishing.
    So my amendment calls for our Government to increase 
American natural gas exports to the Ukraine, the former Soviet 
Republics, and European countries.
    And I reserve.
    Mr. Chabot. Will the gentleman yield?
    Mr. Poe. Yes.
    Mr. Chabot. I thank the gentleman for yielding. I would 
just like to correct the record in one respect. I agree with 
everything that the gentleman said except the greatest ice 
cream in the world is made in Cincinnati. It is Graeter's ice 
cream. [Laughter.] I yield back.
    Chairman Royce. Do you export it?
    Mr. Chabot. Yes, we do. And everybody loves it.
    Mr. Poe. I reserve.
    Chairman Royce. Mr. Sherman of California.
    Mr. Sherman. I rise in opposition, reluctant opposition, to 
my colleague's amendment. I think it is important that we have 
a resolution that passes overwhelmingly on the floor of the 
House in just a few hours. It would be brought up under a 
suspension. The way to do that is to focus on where we are 
unified, which is our foreign policy toward the Ukraine.
    This House is not all that unified on energy policy. As a 
matter of fact, we just had votes on the floor of the House 
where there was substantial opposition to a bill dealing with 
energy policy. I think we have got another energy policy vote 
this afternoon, which will not pass on a suspension.
    The issue of exporting natural gas is controversial as a 
domestic issue. Consumers in the United States, and especially 
manufacturers in the United States, enjoy the fact that natural 
gas prices are substantially lower than they are on the world 
market. Exporting natural gas would then cause Americans and 
others to pay the world price.
    In addition, I don't have to tell the gentleman that we 
have some environmentalists in our caucus that do not want to 
see an increase in fracking, an increase in natural gas 
production. And regardless of where any member stands here on 
whether we should export natural gas, whether Federal land 
should be open to more exploration, I would call upon everyone 
who is a member of the Foreign Affairs Committee to say, ``Let 
us bring a foreign affairs resolution to the floor of the 
House, rather than one that there will be pressure on at least 
Democrats to vote against on these domestic energy issues.''
    We had one series of votes on controversial energy issues 
this morning. We have another one this afternoon. We don't have 
to turn this foreign affairs resolution into a third partisan 
divide, can't pass on a suspension, or maybe can't pass on a 
suspension, controversial vote.
    The chair of our T&T, including Trade Subcommittee, and I 
have had hearings on this issue. I see merits on both sides of 
whether we should export natural gas. What I don't see is a 
reason to put it in the Ukrainian resolution.
    Mr. Deutch. Point of order, Mr. Chairman.
    Chairman Royce. The gentleman is recognized for a point of 
order.
    Mr. Deutch. To follow Mr. Sherman's comments, is the--does 
this committee have jurisdiction over the export of natural 
gas?
    Chairman Royce. Well, we would have jurisdiction over 
exports and export promotion. And on top of that, in the 
resolution itself it makes reference to Ukrainian energy 
independence. So, yes, very clearly it would be germane, and it 
would be----
    Mr. Deutch. Parliamentary inquiry----
    Chairman Royce. Yes.
    Mr. Deutch [continuing]. If this language is added to the 
resolution, will the Energy and Commerce Committee then command 
jurisdiction?
    Chairman Royce. I don't think so. I will recognize the 
Parliamentarian.
    The Parliamentarian. Sir, that would depend on an 
intervening decision by that committee to seek a sequential 
referral with the House Parliamentarians, and we can't prejudge 
that.
    Mr. Deutch. Right. And I would just join my colleague, 
then, in the great concern that that potential claim of 
jurisdiction could slow down this very important statement that 
the House Foreign Affairs Committee and the Congress should put 
forward immediately. There is no time for delay.
    I yield back.
    Mr. Salmon. Mr. Chairman?
    Chairman Royce. I will recognize the gentleman from 
Arizona.
    Mr. Salmon. Mr. Chairman, I know we have had hearings on 
this issue as well and spoken to numerous folks in the industry 
and analysts on Wall Street. The fact is, the current law 
already exists for the administration and for the Department of 
Energy to grant these permits. It doesn't require new law. All 
this is doing is encouraging them to use the laws that are 
already on the books to do that.
    So I don't see where there would be any jurisdictional 
issues personally that go back to the Energy and Commerce 
Committee. And, additionally, the economists that I have spoken 
to about whether or not prices would rise in the United States 
if we export LNG or CNG have already been debunked. In fact, if 
they listen to the gentleman as he explained, they are actually 
burning off excess right now. And so many of the folks that are 
going to deploy new gas resources are not doing it because 
right now of the price of natural gas, so it is actually 
hurting us.
    And, thirdly, if this isn't a foreign policy issue, I mean, 
I think most people would agree that Russia has undue influence 
over this country, over Ukraine, because of the energy that 
they supply. So it is a foreign policy issue, and I would argue 
and speak out in strong favor of the gentleman's amendment.
    Mr. Deutch. Mr. Chairman? Mr. Chairman, further to my 
parliamentary inquiry, Mr. Chairman, I----
    Chairman Royce. Mr. Deutch.
    Mr. Deutch [continuing]. Just to clarify, I appreciate my 
friend's belief that the Energy and Commerce Committee would 
not have jurisdiction. But just to confirm, it is the position 
of staff of this committee that indeed they would have the 
ability to claim jurisdiction.
    Chairman Royce. Well, that is not an inquiry, first of all. 
But let me respond to the overall point. Given the desire on 
the part of the institution to move this legislation, I do not 
believe for one moment that they would request referral on this 
initiative from the Foreign Affairs Committee.
    And let me just take a moment here to explain that Mark 
Udall of Colorado is making this case for natural gas exports, 
given the Ukraine crisis. I understand that there might be some 
various perspectives on the committee on this issue, but I 
would also ask the members to remember this is a non-binding 
resolution.
    It is a non-binding resolution that comes in the face of 
Mr. Udall's call for action and the actions for others in order 
to do something to remove or at least signal--think this 
through, members, if you would--signal to the Ukrainian 
Government and to Europe that right now feel very much under 
the thumb of Russia that there is a way forward should the gas 
be cut off, that there is the hope that that gas could be 
exported from the United States into their markets, thus 
relieving the pressure that Russia might otherwise bring into 
play.
    I think the wider issues that have been made here, the 
economic benefits of exporting liquified natural gas, the fact 
that the Department of Energy did look at this long and hard, 
the administration looked at this, and the DoD and DOE decided 
that it outweighs the costs. The Department of Energy has found 
that America can produce more than enough natural gas to meet 
domestic demand affordably while also supporting export 
markets.
    And the report concludes that the net benefits of exports 
apply to consumers as well as the overall economy and that 
these benefit increase along with the level of exports. And 
other studies, of course, have reached similar conclusions.
    My takeaway from this is because it is non-binding, because 
it is sent as a message to Russia in the middle of Russia's 
attempt to use this as a weapon, that at the end of the day, 
although there might be a divided vote on the amendment, I 
would suggest in the general scheme of things that this is not 
a final vote on the House floor, which would occur on something 
out of the Department of Energy for enactment of the final 
decision on such a provision. And so I just put that in context 
for everyone's consideration.
    I think Mr. Meadows was requesting time.
    Mr. Meadows. Thank you, Mr. Chairman. I would like to make 
sure that we set the record straight with regards to natural 
gas exports and speak in favor of this amendment, and would 
share with some of my colleagues opposite. The fact that we 
have met many of the greenhouse gas emissions standards--in 
fact, have met the Kyoto levels without passing that--is a 
direct response to our energy solution here in the United 
States, using much more natural gas.
    Quite frankly, the greenhouse gas emissions have been 
lowered, according to the EPA, by over 5 percent as a reduction 
that comes directly from the use of natural gas. And so some of 
the concerns that we might have with regards to greenhouse gas 
emissions would be addressed with regards to exporting natural 
gas instead of oil or other fossil fuels.
    I would also like to add that by most estimates, by many 
estimates, we have well over a 200-year supply of natural gas, 
and so the amount that the Ukraine would use or any consumption 
that might be used as a result of supplanting this particular 
flow from Russia would certainly be offset by the years and 
years of reserves that we have now. And so I would just urge my 
colleagues to support this resolution and do all that we can to 
provide relief for the freedom-loving people of Ukraine.
    And I yield back.
    Mr. Duncan. Will the gentleman yield?
    Mr. Meadows. Certainly.
    Mr. Duncan. I want to thank him for his comments. I want to 
just point out that this is not setting energy policy for the 
nation. This is taking available energy surplus that we have 
and exporting it to a nation that is in dire concern about the 
future of their energy security, because of the gas pipelines 
that are controlled by the Russians that go through the 
Ukraine.
    This isn't just a Ukrainian issue. It is also going to 
spill over into a European issue because of those gas lines.
    Exporting natural gas and exporting the technology that 
would allow the Ukrainians to harvest and produce the resources 
that they have got is the right thing. In fact, last year 
Ukraine signed a natural gas exploration deal with both Royal 
Dutch Shell as well as Chevron, which pledged to invest as much 
as $10 billion if adequate supplies of Shell gas were found.
    The Ukraine has more than 40 trillion cubic feet of 
technically recoverable natural gas. This would allow the 
Ukraine to possibly have energy independence and lessen some 
dependence on a country that is sitting on their doorstep right 
now. This is the right thing. It does not set policy for this 
country other than it encourages taking some of the surplus we 
have got--that we have in this country and helping a friend, 
helping someone that is pursuing the liberty that we enjoy.
    So I appreciate the gentleman from Texas offering the 
amendment. I support it. I think it is the right thing, and I 
appreciate the gentleman yielding time to me. And with that, I 
will yield back, Mr. Meadows.
    Chairman Royce. Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. I just want to go back 
to what Mr. Sherman had indicated, because I think that the 
message that we also want to show and send is that we are all 
together, that there is no division in the United States 
Congress, irrespective of beliefs on Shell gas, et cetera. And 
what this amendment could cause is division because some 
individuals will not be able to or may not vote for the 
resolution because they have a different opinion. And I think 
that is going to have to be taken into consideration here.
    You know, I haven't made a decision on Shell gas or whether 
I am for selling it abroad or not. You know, that is a decision 
that is going to have to be made. I don't want to have to make 
that kind of decision, because the language that we utilize is 
important. Even though it is not binding, it is important and 
it is going to be read by others.
    And so for the sake of unity, in my estimation, we should 
try to make sure that we come up with a resolution that we all 
can 100 percent say we are with and stand by and not cause any 
divisions, you know, that shows that there is any wrinkle 
between us, because that is then something that I think the 
Russians would love to exploit and say that we are not 100 
percent together.
    And I think that the idea of us, as the United States 
Congress, saying that we are all together on this resolution 
sends by far a stronger message to Russia than us debating back 
and forth or having someone vote no because they are not for 
selling of Shell gas or exporting Shell gas.
    I yield back.
    Chairman Royce. Yes. Mr. Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. This is a tough 
one. I have been out there agreeing that the best way to 
counter the Russians in the next decade or two is export of 
natural gas to make our allies' reliance on them less important 
than their reliance on us, and I am 100 percent supportive of 
it.
    That said, Mr. Chairman, I am not sure if this is the place 
to put a resolution like this. I am undecided how I am going to 
vote on this, because right now I think the most important 
thing we can do as the United States Congress is to show 
unanimity on this issue, to show the people of Ukraine that we 
are behind them. And I don't know if this is the place to 
engage on a debate that may be very divisive, that while I am 
on one side of it, and I am very passionately on one side of 
it, I understand that there are people that disagree with me.
    And I think and I am afraid, and with respect to Mr. Poe, I 
am afraid that the addition of this amendment will create 
division that will be, as was said by my colleagues on the 
other side of the aisle, will be perceived by the Russians and 
even the Russian media as a Congress that is not united on 
support of the Ukrainian people.
    While I also understand that I am probably in a big-time 
minority on my side for doing this, I am leaning toward 
opposing this amendment, not because of my disagreement with 
what is in it but because of my belief that it is extremely 
important for us to present a united front on this issue.
    And with that, I will yield back, Mr. Chairman.
    Chairman Royce. I thank the gentleman.
    We will go to Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I actually support 
what Judge Poe is trying to do here. I think it actually is 
important from a foreign policy point of view to be very clear 
with respect to the Putin administration in Russia that we are 
prepared to even substitute ourselves as a natural gas supplier 
in the event that they continue down the road they have chosen.
    But I want to echo what Mr. Meeks and what Mr. Kinzinger 
both just said. I think at this grave moment it is essential 
Congress speaks with one voice. It is essential we not divide 
this resolution today, so that there is no misconstruing the 
firm intent of Congress to resist the acts of aggression 
against Crimea and against the Ukraine by the Putin 
administration in Moscow. He needs to see that. He needs to 
hear that.
    A divided opinion, even though I may be on Mr. Poe's side 
of this opinion, I think risks something very important in 
terms of our resolve and our ability to speak with one voice at 
this time of crisis. And I would urge my friend from Texas to 
consider that. I would urge the chairman to consider that as we 
proceed.
    And with that, I yield back.
    Chairman Royce. I would like to recognize Mr. Grayson on 
the underlying amendment, and also for a second-degree 
amendment. Well, let me just recognize Mr. Grayson at this 
time.
    Mr. Grayson. Thank you. I will reserve the right to offer 
an amendment shortly, if that is okay with the chairman.
    Chairman Royce. It is. It comes with my support, Mr. 
Grayson.
    Mr. Grayson. Thank you very much, Mr. Chairman. My 13-year-
old daughter would like to see increased exports of natural gas 
from the United States to the Ukraine, and my 13-year-old 
daughter would also like a pony. So with that in mind, I would 
like to ask Mr. Poe, the gentleman from Texas, a few questions.
    This resolution is about Russian military intervention in 
the Ukraine. Mr. Poe, are the Russians blocking the U.S. export 
of natural gas?
    Mr. Poe. This resolution expedites the policy of the United 
States to be--to supply the Russians with--or supply the 
Ukrainians with natural gas. As you know, this whole 
intervention by the Russians in the region is based upon trying 
to control their energy. So we are letting the Russians know, 
as the administration has already said, to supply them, the 
Ukrainians--if we have the capability, supply them with natural 
gas.
    Mr. Grayson. Mr. Poe, that is a little too complicated for 
me to understand. Aren't we already exporting all the natural 
gas that we can to the Ukraine and other countries in the 
region? Are the Russians preventing us from doing that?
    Mr. Poe. No, we are not. There are 1,500 flare-ups in North 
Dakota as we sit here today that are burning off enough natural 
gas to heat 1 million homes. So, no, we are not exporting all 
we can.
    Mr. Grayson. What makes you think, Mr. Poe, that it is 
Russian military intervention in the Ukraine that is causing 
those gas producers to burn off that excess?
    Mr. Poe. Because, as they have done in the past, the 
Russians use their economic stranglehold on the former Soviet 
Republics by holding them hostage with natural gas. Ukrainians 
get 60 percent of their natural gas from Russia. And if they 
don't tow the line, the Russians turn off the gas, which they 
have done twice. So it's one of the reasons why the Russians 
move in, in my opinion, to areas--because they can control them 
economically; now they want to control them politically.
    Mr. Grayson. Mr. Poe, what is your plan for delivering 
natural gas from North Dakota to the Ukraine instead of having 
it flare off? Are you proposing a pipeline under the Atlantic 
Ocean?
    Mr. Poe. Well, there would have to be, of course, the 
infrastructure to do so. And if we had the infrastructure 
already, we could have done it. But we don't have that 
infrastructure, as you know, but this then sets a policy of the 
United States long term to the Russians that people in Eastern 
Europe, former Soviet Republics, are now going to have an 
option to get natural gas, and they are not going to have to 
get it only from the Russians.
    Of course, it could not be done today, but it would be a 
policy, as the administration has already said, to export 
natural gas so that they have other options.
    Mr. Sherman. Will the gentleman yield?
    Mr. Grayson. Your specific wording, Mr. Poe, says that you 
are calling on the United States to increase natural gas 
exports in order to reduce Russian control of energy exports. 
Are you saying that the Russians are now in control of American 
energy exports?
    Mr. Poe. No, I didn't say that at all.
    Mr. Grayson. Well, that is what the words say.
    Mr. Poe. It doesn't say that. Read it again.
    Mr. Grayson. Okay.
    Mr. Poe. Russians do not control American exports. We 
control them. But right now we don't allow our exporters to 
export natural gas because of a lot of other reasons we can 
discuss if you want to. All this does is set a policy saying 
that our answer to the Russians moving into other people's 
countries: We are going to fight back politically and 
economically with energy.
    And this is the answer I think that we should tell the 
Russians. We should be a singular voice on this. ``You are not 
going to be able to hold these countries hostage any longer 
over the issue of energy.'' And that is the political 
development that is taking place in the Ukraine. Sixty percent 
of their natural gas comes from Russia. Why don't we give the 
Ukrainians an option.
    Mr. Grayson. Mr. Poe, your amendment calls on the United 
States to do what you are describing here. Where is it in the 
Constitution of the United States that says that the U.S. House 
of Representatives, the representatives of the people of the 
United States, have any authority to call on the United States 
as a whole to do anything? Can you point to the part of the 
Constitution where it says that?
    Mr. Sherman. Will the gentleman yield?
    Mr. Grayson. Yes.
    Mr. Sherman. We require Federal approval for export 
facilities for liquefied natural gas. There are those in the 
Republican party who think that the Obama administration has 
been too reluctant to issue those permits. There are those in 
the environmental community that think we have already issued 
too many permits. But I think it is reasonable to say that this 
is an issue that we need to confront, and our committee has 
substantial jurisdiction in the area.
    But it is not Russia that is preventing the export of 
liquefied natural gas. That is a matter of the economic policy 
and the environmental policy that the administration has 
substantial control over.
    Mr. Grayson. Yes.
    Mr. Sherman. I yield back.
    Mr. Grayson. And that is exactly my point. I know nonsense 
when I see it, and this is poorly written nonsense, with all 
due respect to the gentleman from Texas.
    I yield the rest of my time.
    Mr. Meadows. Mr. Chairman? Mr. Chairman, I----
    Chairman Royce. Mr. Meadows.
    Mr. Meadows [continuing]. I ask that we strike the last 
words of Mr. Grayson. You know, we are adding personalities 
here and personalties to this, and so I would ask that we would 
strike that.
    Chairman Royce. Let me do this. Let me just admonish all 
members, direct your questions to the Chair and let us try to 
follow Jefferson's original rules of decorum here as we 
continue the debate.
    Does anyone want to be recognized for an amendment?
    Mr. Grayson. Yes, Mr. Chairman. I would like to be 
recognized for an amendment, and I think we have a copy at the 
desk.
    Chairman Royce. I ask if--do we have a copy of the 
amendment at the desk?
    Ms. Marter. We do, sir.
    Mr. Collins. Mr. Chairman?
    Chairman Royce. Will the gentlelady--the gentleman is 
recognized.
    Mr. Collins. Is this coming in the form of a secondary 
amendment to this amendment?
    Chairman Royce. That is correct. I believe this is a second 
degree amendment to the amendment.
    Mr. Collins. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Collins.
    The clerk will read the amendment.
    Ms. Marter. Second-degree amendment to Mr. Poe's amendment 
offered by Mr. Grayson of Florida, strikes the text of the 
amendment and substitute page 6, strike lines 1 to 4, and 
insert the following, ``15, Calls on Ukraine and European 
countries and former Soviet Republics to support energy 
diversification initiatives to reduce Russian control of energy 
exports, including by promoting energy efficiency and reverse 
gas flows from Western Europe.''
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Royce. The gentleman is recognized on his 
amendment.
    Mr. Grayson. Thank you. The purpose of my amendment is 
simply to try to bridge the gap that has appeared here today 
and to try to make this effort--this initiative to help the 
people in the Ukraine resist Soviet--excuse me, Russian 
intervention militarily, and to stand up as free people, and 
that we can do so unanimously.
    I understand the geopolitical issue involved here. I do 
understand that one way to help the people of the Ukraine is in 
fact to help them to be energy independent, just as it would 
help the people of America if we were all energy independent.
    So with that in mind, I introduce this amendment to call on 
the Ukraine and the European countries and former Soviet 
Republics to support energy diversification initiatives, to 
reduce Russian control of energy exports, including by 
promoting energy efficiency and reverse gas flows from Western 
Europe.
    I want to point out that the chair has discussed a 
potential amendment to this language which I certainly think 
could be constructive. We just simply didn't have time to reach 
some conclusion, but the chair wants to discuss after this, if 
I understand the chair correctly, language to the effect of 
calling on the United States to increase gas exports and 
promote energy efficiency.
    My understanding is that third order amendments are out of 
order. So I don't think we will be able to reach a conclusion 
on this given the timeframe that is contemplated. I offer my 
amendment with the chair's recommendation in mind.
    I yield the rest of my time.
    Chairman Royce. I will yield myself such time as I might 
consume. So currently the second-degree amendment to Mr. Poe's 
amendment as offered here by Mr. Grayson would read, ``Calls on 
Ukraine and European countries and former Soviet Republics to 
support energy diversification initiatives to reduce Russian 
control of energy exports, including by promoting energy 
efficiency and reverse gas flows from Western Europe.''
    I would suggest that, if he withdraws this amendment, we 
would work to offer an amendment, and I would ask unanimous 
consent to do so, which seeks to achieve exactly that language 
in the first paragraph and calls on the United States to 
promote increased gas exports and energy efficiency.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Royce. I think that that language would satisfy 
our desire collectively to send the message to Russia that 
there would be long-range consequences should this continue to 
escalate. At the same time, I suspect that that language would 
satisfy Mr. Poe and Mr. Grayson.
    And with that suggestion, maybe I could open this to 
debate.
    Mr. Engel. Mr. Chairman?
    Chairman Royce. Mr. Engel.
    Mr. Engel. Mr. Chairman, I would like to agree with what 
you just said. I think that this strikes a good balance. It 
talks about reducing Russian control of energy exports and, at 
the same time, it is likely not to get any negativity on the 
House floor. I do agree with our colleagues who have said that 
what we should aim for is for the maximum number of votes on 
the House floor to send an unequivocal message to the Russians 
that this Congress is united in opposing what they are doing.
    I am sympathetic to some of the points that Mr. Poe has 
raised. I think this does strike a happy medium, and I support 
it. I think it is a good compromise.
    Chairman Royce. I thank the gentleman.
    Now, again, reclaiming my time here, I am going to ask 
unanimous consent to add to the end of the Grayson amendment 
the following language, ``And calls on the United States to 
promote increased gas exports and energy efficiency.'' 
Afterwards, there will be a vote on the Grayson amendment. 
Those who wish to vote in opposition--by the way, is there any 
objection?
    [No response.]
    Chairman Royce. Hearing none, afterwards there will be a 
vote on the Grayson amendment, as amended, without objection, 
and following that, the Poe amendment, as amended by the 
Grayson amendment. So my hope is that that will satisfy the 
members of this committee, and the final language I think 
should be one that sends a strong message to Russia.
    Members seeking to be recognized? Yes, Mr. Lowenthal, and 
then Mr. Kennedy and any other members.
    Mr. Lowenthal. Could you please----
    Chairman Royce. Yes.
    Mr. Lowenthal [continuing]. Repeat exactly the words----
    Chairman Royce. Yes.
    Mr. Lowenthal [continuing]. That you want to add?
    Chairman Royce. The addition, before the final period, in 
other words, ``Reverse gas flows from Western Europe, and calls 
on the United States to promote increased gas exports and 
energy efficiency.''
    Mr. Lowenthal. Promote.
    Chairman Royce. I think----
    Mr. Perry. Mr. Chairman, I have a question.
    Chairman Royce. Mr. Perry had a question.
    Mr. Perry. Thank you, Mr. Chairman. I am curious about the 
verbiage ``and reverse gas flows from Western Europe.'' Does 
this essentially--I mean, it takes valving changes, and so on 
and so forth, and it takes a market that draws the gas to the 
customer. It doesn't take us saying so. And does this mean that 
we are now going to advocate to sell our gas to Russia?
    Chairman Royce. No, it does not, Mr. Perry. But I want to 
recognize Mr. Grayson for an explanation of his amendment.
    Mr. Grayson. Well, the status quo these days is that 
Western Europe imports gas from Russia, and there is a 
perception on the part of many that that creates a certain 
dependency on the part of Western Europe to Russia, because 
Russia could turn off the tap in the same manner that Russia 
has turned off the tap to some of the former Soviet Republics.
    So reverse gas flow is meant to denote, in essence, energy 
independence for Western Europe, so that Western Europe does 
not remain dependent upon Russian gas to the extent that it 
already may be.
    Chairman Royce. Mr. Kennedy, did you seek recognition?
    Mr. Kennedy. No, Mr. Chairman. I was helping out Mr. 
Lowenthal. Thank you.
    Chairman Royce. Okay. Other members seeking recognition? 
Oh, Mr. Castro, yes.
    Mr. Castro. I would just say, you know, since the fall of 
the Soviet Union in 1991, we essentially were encouraging 
Russia to become a capitalist democratic nation, and we 
encouraged their economic entanglements, now it seems like, not 
only with the United States but also with Europe.
    They are now in a position to use those entanglements as 
leverage in the situation in which we all now find ourselves. 
So I think there is a question now going forward, once this is 
resolved, what our strategy is with respect to Russia and 
whether, you know, the society of nations, including the United 
States and Europe, is going to encourage further economic 
development with Russia or not.
    I support along the lines where Congressman Poe is going. I 
do think that we need to be a supplier of energy to, you know, 
many of the nations that Russia now has a large share of the 
supply for. But I also think that we can't pretend as though 
what has developed is only the product of what Russia has done. 
For many years, we have encouraged that, except that now 
instead of, you know, essentially doing what we had hoped they 
have taken a turn toward imperialism and back toward their 
Soviet actions. And that is the situation in which we find 
ourselves.
    Chairman Royce. Well, the question is on the Grayson 
amendment as modified----
    Mr. Stockman. Mr. Chairman?
    Chairman Royce. Yes. Who seeks recognition?
    Mr. Stockman. Stockman. I have a real quick question. I 
tend to agree that if we adopt the language ``reverse gas 
flows'' that means Europe is going to sell to Russia. I just 
wish we would clarify that language, but I yield back.
    Chairman Royce. I thank the gentleman for yielding back.
    Mr. Grayson, would you like to elaborate any further on 
your amendment?
    Mr. Grayson. Sure. Russia has the largest hydrocarbon 
reserves in the entire world. It seems unlikely that Russia 
will be importing natural gas anytime soon.
    Chairman Royce. That is the language.
    Mr. Grayson. Well, actually, what we are doing is we are 
talking about reverse gas flows from Western Europe. That could 
be to Czechoslovakia, that could be to Poland, that could be to 
the Ukraine, that could be to any number of locations that are 
energy poor. Russia itself is enormously energy rich.
    Mr. Kinzinger. On that----
    Chairman Royce. Yes, Mr. Kinzinger.
    Mr. Kinzinger [continuing]. What is wrong with Europe 
selling gas to Russia? That is a much better position than 
Russia selling gas to Europe, correct?
    Mr. Weber. Mr. Chairman?
    Chairman Royce. Any other----
    Mr. Weber. I have a question, Mr. Chairman.
    Chairman Royce. Any other members seeking recognition? Mr. 
Weber.
    Mr. Weber. Yes. Just a question, I guess along with Mr. 
Grayson's amendment. So, actually, for Western Europe to become 
that energy proficient, is he promoting fracking over in 
Western Europe? I just had a question for him.
    Chairman Royce. Reclaiming my time, I think the question 
before us is on the Grayson amendment, as modified by UC. All 
those in favor of the Grayson amendment, with our UC addition, 
please signify by saying aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it.
    Hearing no further requests for recognition, the question 
occurs on the Poe amendment, as amended by the Grayson 
amendment. All those in favor say aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it. The 
amendment is agreed to.
    Are there any other amendments? Ms. Gabbard, yes.
    Ms. Gabbard. Thank you, Mr. Chairman. I will be very brief. 
I believe my amendment is----
    Chairman Royce. Ms. Gabbard, do you have an amendment at 
the desk?
    Ms. Gabbard. I do have an amendment at the desk.
    Chairman Royce. The clerk will read that amendment.
    Ms. Marter. Amendment to H. Res. 499, offered by Ms. 
Gabbard of Hawaii. On page 3, in the last clause of the 
preamble, after the last ``and'' insert ``regarding civil and 
political rights.''
    Chairman Royce. Without objection, the amendment will be 
considered as read.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Ms. Gabbard. Thank you, Mr. Chairman.
    Chairman Royce. Ms. Gabbard, would you explain your 
amendment?
    Ms. Gabbard. Thank you very much. Very briefly, the 
amendment on page 3 directly relates to adding ``regarding 
civil and political rights'' so that as we look at the role of 
the international monitors and calling for them to move into 
the region, that they are not only looking at the direct threat 
of an escalating military tension but that they are also 
looking at the underlying tensions that exist within the civil 
and political arena.
    The second amendment on page 5 seeks to address the need, 
as we look to provide aid and assistance to Ukraine, to get to 
that end state of stability on all levels, whether it be 
economic or in other areas, that we also encourage the reforms 
needed to address corruption, which has played a direct role in 
the weakened state that we are seeing.
    Thank you, Mr. Chairman.
    Chairman Royce. I thank the gentlelady and thank her for 
the language on the anti-corruption measures which you have 
added to the base text here.
    Any other members seeking recognition on the Gabbard 
amendment?
    [No response.]
    Hearing no further requests for recognition, the question 
occurs on the amendment from Ms. Gabbard. All those in favor 
say aye.
    [Chorus of ayes.]
    All opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Any other amendments? Any other members seeking 
recognition?
    [No response.]
    Hearing no further amendments to the measure, the question 
occurs on agreeing to House Resolution 499, as amended. All 
those in favor signify by saying aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it and the bill, 
as amended, is agreed to.
    Without objection, H.R. 499, as amended, is ordered 
favorably reported, will be reported as a single amendment in 
the nature of a substitute. Staff is directed to make any 
technical and conforming changes, and that concludes our 
business for today.
    And, again, I want to thank our ranking member, Mr. Engel 
from New York, and all of our committee members for their 
contribution and assistance today.
    The committee stands adjourned.
    [Whereupon, at 12:57 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 <F-dash>\<box><Rx><bullet><box><script-l> stat<box><acctof><box><Rx>t\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         <F-dash>\<dot-box><box><Rx><Rx><box><star><variable> 
                      stat<box><acctof><box><Rx>t\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
